AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 National Nuclear Security
 Administration's Pit Disassembly and
 Conversion Facility




 DOE/IG-0688                                    May 2005
REPORT ON THE NATIONAL NUCLEAR SECURITY
ADMINISTRATION'S PIT DISASSEMBLY AND CONVERSION FACILITY




TABLE OF
CONTENTS


  Project Design and Schedule

  Details of Finding                                   1

  Recommendations and Comments                         4


  Appendices

  1. Objective, Scope, and Methodology                 7

  2. Prior Audit Reports                               9
Project Design and Schedule

Background          In order to dispose of surplus plutonium, the National Nuclear
                    Security Administration (NNSA) planned to construct two
                    facilities at the Savannah River Site. The first facility, the Pit
                    Disassembly and Conversion Facility (Conversion Facility), is
                    designed to convert surplus nuclear weapon pits and plutonium
                    metal into an oxide. The second facility, the Mixed Oxide Fuel
                    Fabrication Facility (MOX Facility) will convert the plutonium
                    oxide produced by the Conversion Facility into fuel for use in
                    commercial nuclear power plants. The Conversion Facility will
                    utilize the Advanced Recovery and Integrated Recovery System
                    (ARIES) developed by the Los Alamos National Laboratory
                    (LANL) in collaboration with Lawrence Livermore and Sandia
                    National Laboratories to produce plutonium oxide. The ARIES
                    system separates plutonium from nuclear weapons components
                    called pits and produces plutonium oxide. The ARIES system
                    consists of eight modules housed in a sequential series of
                    gloveboxes for bisecting the pits, removing the plutonium from the
                    pits and converting the plutonium into plutonium oxide.

Cost and Schedule   Based on our review of project data, we determined that NNSA
Slippage            will not meet the schedule and cost established for the Conversion
                    Facility as outlined in its February 2002 Report to Congress
                    (Report). In the National Defense Authorization Act of FY 2002,
                    Congress directed the Department to provide, not later than
                    February 1, 2002, a plan outlining a schedule and cost for
                    disposing of surplus defense plutonium. NNSA issued the Report,
                    which indicated that the Conversion Facility would be completed
                    by FY 2009 at a life-cycle cost of $1.7 billion. Since that time, the
                    schedule to finish construction of the Conversion Facility has
                    slipped and may not be completed until 2013. In addition, total
                    project costs will increase substantially from the original 2002 cost
                    estimate once the full cost of waste disposal is recognized.

                                             Schedule Slippage

                    Although the Conversion Facility Project is still in the design
                    phase, the schedule for construction completion of the Conversion
                    Facility has slipped by as many as four years. In May 2003,
                    NNSA approved the Design Contractor's Preliminary Design
                    Report for the building, which set the project's detailed design date
                    at October 2003 and revised the overall project completion date to
                    FY 2010. Subsequently, the project's detailed design slipped about
                    two years – to September 2005. Then, the Request for Proposal
                    (RFP) for award of a contract for a full-time construction manager,




Page 1                                                               Details of Finding
         originally scheduled to be issued in October 2003, was delayed
         until April 2005. The Contracting Officer projected that once the
         RFP for a construction manager was issued, it would take from 12
         to 18 months to award the contract. Therefore, the contract award
         could be delayed to as late as October 2006. In September 2004,
         the Assistant Deputy Administrator for Fissile Materials
         Disposition provided us with documentation showing that the
         startup of the Conversion Facility had slipped to 2013.

         NNSA officials stated that the schedule delays were attributable to
         the disagreement between the U.S. and Russia about liability for
         work performed by U.S. contractor personnel working in Russia
         and a change in funding priorities. NNSA officials indicated that
         Congressional and Administration direction has been that the U.S.
         and Russian plutonium disposition programs must proceed in
         parallel and the disagreements between the two countries have
         impacted NNSA's ability to proceed with construction.

         While foreign policy issues have delayed the start of construction,
         we found that NNSA has experienced technical problems
         completing equipment design for the Conversion Facility.
         Specifically, NNSA has had difficulty in taking prototype
         equipment and modifying it for full-scale production use in the
         Conversion Facility. NNSA believed that LANL's ARIES
         demonstration model was prototypical of the equipment needed to
         produce 3.5 metric tons of plutonium oxide per year and would
         easily convert from the laboratory to the industrialization phase.
         However, this turned out not to be the case. For example, the
         prototype lathe used to dissect the pits required modification. The
         lathe was wider than the original, which required a wider
         glovebox, making the interior of the lathe inaccessible to the
         operators if problems occurred. Additionally, while the ARIES
         system made use of robotics to reduce worker dosage, LANL has
         encountered difficulties in incorporating the use of robotics into its
         final equipment designs. Also, the technical design of the crucible
         breaking station had to be modified. Finally, the direct metal
         oxidation furnace, used to heat pits to extremely high temperatures,
         had to be redesigned in order to meet design requirements for
         surface temperature. The Conversion Facility's equipment design
         is still not complete and, in March 2004, NNSA transferred the
         responsibility for equipment design from LANL's subcontractor to
         the building design contractor.




Page 2                                                     Details of Finding
                                        Waste Disposition Costs

                  We determined that, once waste disposal is factored in, NNSA's
                  costs for the Conversion Facility Project will increase substantially
                  over the $1.7 billion estimate. While NNSA officials told us that
                  they included nominal amounts for waste disposal in their 2002
                  cost estimate to Congress, they did not identify a specific plan for
                  disposal of the surplus plutonium generated by the Conversion and
                  MOX Facilities.

                  After considering several options for disposition of waste, NNSA
                  informed Congress, through budget data sheets for FYs 2004 and
                  2005, of its intent to dispose of the waste generated by the
                  Conversion and MOX Facilities by constructing a Waste
                  Solidification Building (WSB) that would be added to the
                  Conversion Facility Project. However, an estimated cost for this
                  disposal option was not reported. NNSA stated that they had not
                  made a final decision on how they would dispose of waste
                  generated by the process and that a decision on proceeding with
                  the WSB or some other alternative is not expected to be
                  forthcoming until 2005.

Project Impacts   Problems with completing the Conversion Facility in a timely
                  manner could result in increased operational costs for the
                  associated MOX Facility. Specifically, each year that the
                  Conversion Facility is delayed could potentially impact MOX
                  Facility operations by $102 million, the estimated annual operating
                  cost of the MOX Facility. Based on NNSA's current assumptions,
                  the MOX Facility has only enough feedstock to run until 2011.
                  After that date, the MOX Facility will be dependent upon the
                  Conversion Facility to supply its feedstock. If the Conversion
                  Facility is not operational, processing at the MOX Facility would
                  cease. As stated previously, the Conversion Facility may not be
                  operational until 2013; therefore, the two-year delay to the
                  Conversion Facility Project could result in a $204 million increase
                  in operational costs for the MOX Facility.

                  Not providing for a means to dispose of waste produced by the
                  Conversion and MOX Facilities resulted in a substantial
                  underestimate of the projects' overall cost. Specifically, regardless
                  of the method of waste disposition ultimately selected by NNSA, it
                  is clear that the cost of the project will increase beyond the $1.7
                  billion reported to Congress in 2002. For example, NNSA
                  approved the Design Contractor's May 2003 Preliminary Design
                  Report which contained a life-cycle cost estimate (LCCE) of $158
                  million for the WSB. As of February 2004, the LCCE of the WSB
                  had increased to $617 million.

Page 3                                                             Details of Finding
______________________________________________________________________

RECOMMENDATIONS      We recommend that the Administrator, National Nuclear Security
                     Administration:

                        1. Finalize the design of the equipment needed to successfully
                           operate the Conversion Facility;

                        2. Determine a waste disposal path for Conversion Facility
                           and MOX Facility waste;

                        3. Develop a complete cost baseline for the Conversion
                           Facility Project that includes waste disposal;

                        4. Ensure that the Conversion Facility Project and MOX
                           Facility schedules are linked to avoid idle capacity at the
                           MOX Facility; and

                        5. Inform Congress of changes to the cost of the Conversion
                           Facility Project, including the cost for waste disposal.


MANAGEMENT           Management agreed with our recommendations, but indicated that,
AND AUDITOR          with the exception of recommendation 1, they would not be able to
COMMENTS             implement them until the foreign policy impasse is resolved with
                     the Russians. With regard to recommendation 1, NNSA cited that
                     they are in the process of finalizing the design of the equipment.
                     Management disagreed with several of the conclusions outlined in
                     the report. Their specific comments, followed by our responses, are
                     detailed below.

                     Management Comment: Management disagreed that the award of
                     the construction management contract for the Conversion Facility
                     was past due. Specifically, the contract award is linked to the start
                     of construction of the MOX Facility and, therefore, given the
                     Conversion Facility delays, sufficient time is remaining to award
                     the construction management contract. Management also did not
                     agree that the two-year design schedule delay was caused by
                     technical problems in modifying the ARIES model.

                     Auditor Comment: NNSA has been unable to demonstrate how the
                     award of the contract, the execution of the construction manager’s
                     responsibilities, and final construction is linked to the operation of
                     the MOX Facility within the two-year timeframe. Management had
                     not developed an integrated schedule of the critical events necessary
                     to design and construct the two facilities. For example,
                     management chose to include waste disposal as part of the
                     Conversion Facility Project. However, it has not scheduled the
                     actions necessary to dispose of waste generated when the MOX

Page 4                                             Recommendations and Comments
______________________________________________________________________

                     Facility begins operation. Without integrated schedules,
                     management cannot be assured that design and construction
                     activities associated with the two facilities are proceeding in
                     synchronization to achieve the two-year linkage in the beginning
                     dates for operating the two facilities. Although management
                     disagreed that problems in taking prototype equipment and
                     modifying it for full-scale production use caused the design delay, it
                     did not provide any convincing evidence of other specific factors
                     contributing to the delay.

                     Management Comment: Management also disagreed that the delay
                     in constructing the Conversion Facility could cause an increase in
                     the operating cost of the MOX Facility. Management stated that the
                     Conversion Facility is scheduled to begin operation no later than
                     two years after the MOX Facility begins operation. During the
                     interim period, the MOX Facility will process readily available
                     feedstock. Management asserted that, although the beginning dates
                     for operation of the two plutonium processing facilities have
                     changed, the time linkage remains fixed which would avoid any
                     increases in the MOX operating costs.

                     Auditor Comment: While management asserted that it is
                     maintaining a two-year linkage in the schedule for the construction
                     of the two plutonium disposition facilities that will avoid increased
                     operating costs for the MOX Facility, it was unable to demonstrate
                     how it planned to manage the design and construction of the two
                     facilities within the two-year window.

                     Management Comment: NNSA indicated that any major
                     construction project delayed several years as a result of foreign
                     policy concerns would incur significant cost increases and, although
                     there was no separate cost category for waste disposal in the 2002
                     Report to Congress, such costs were included in the design,
                     construction, operation, and contingency costs for the two
                     plutonium disposition facilities. Management added that it did not
                     believe that the $617 million Waste Solidification Building was a
                     cost-effective solution to waste disposal and that it is unlikely to be
                     built. Management plans to initiate discussions with the Office of
                     Environmental Management in 2005 to explore ways to utilize
                     existing infrastructure at the Savannah River Site to reduce waste
                     disposal costs.

                     Auditor Comments: While we recognize that the schedule delays
                     have resulted in cost increases, a major driver of the cost increases
                     is attributable to waste disposal. Since NNSA has not, as of 2005,
                     decided on how it will dispose of waste, it is unlikely that the 2002
                     Report to Congress fully considered the magnitude of the cost to

Page 5                                             Recommendations and Comments
______________________________________________________________________

                     dispose of waste. Furthermore, although management asserts that
                     the Waste Solidification Building is unlikely to be built, we noted
                     that it is part of the application that the Department submitted to the
                     Nuclear Regulatory Commission for a permit to begin construction
                     of the MOX Facility. The Nuclear Regulatory Commission
                     approved the application in March 2005.




Page 6                                             Recommendations and Comments
Appendix 1


OBJECTIVE     The objective of the audit was to determine whether the Pit
              Disassembly and Conversion Facility was on schedule and within
              budget.


SCOPE         The audit was performed from April 2003 to February 2005 at the
              Savannah River Site in Aiken, South Carolina; Washington Group
              International, Inc. in Denver, Colorado; and Los Alamos National
              Laboratory in Los Alamos, New Mexico. The audit included a
              review of the Department's plans for designing and constructing
              the Conversion Facility from December 1997 to December 2003.


METHODOLOGY   To accomplish the audit objective, we:
                  •   Researched Departmental directives regarding project
                      management;

                  •   Analyzed the Design-only Conceptual Design Report for
                      Pit Disassembly and Conversion Facility (December 1997,
                      Revision 0);

                  •   Reviewed additional studies, cost estimates, and schedules
                      for the Conversion Facility;

                  •   Assessed compliance with the Government Performance
                      and Results Act of 1993; and,

                  •   Interviewed NNSA personnel, the Department's
                      contracting officer, Washington Group International, Inc.
                      personnel, and LANL and Jacobs Engineering personnel
                      to evaluate the Department's goals for the Conversion
                      Facility.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Accordingly, we assessed internal controls and performance
              measures related to the design of the Conversion Facility. We
              assessed the Department's compliance with the Government
              Performance and Results Act of 1993 and determined that
              performance measures had been established and were appropriate.
              Because our review was limited, it would not necessarily have




Page 7                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We did not conduct a reliability assessment
                    of computer-processed data because only a very limited amount of
                    computer-processed data was used during the audit.

                    We held an exit conference with management officials on April 8,
                    2005.




Page 8                                          Objective, Scope, and Methodology
Appendix 2


                                 PRIOR AUDIT REPORTS



  •   Savannah River Site's Waste Solidification Building (IG-0618, September 2003). The
      Department's plan for the Plutonium Disposition Program was incomplete in that NNSA
      plans to transfer the waste treated at the WSB to Environmental Management, but
      Environmental Management has no corresponding plans to receive, process, and dispose
      of the waste. In addition, neither NNSA nor Environmental Management has developed
      a cost or schedule baseline for the disposal of WSB-treated waste. A path forward does
      not exist because the Department has not established a policy for disposal of newly
      generated nuclear wastes from NNSA activities. Without an integrated and coordinated
      plan, the Department's accelerated cleanup goals may not be achieved and life-cycle costs
      for the Plutonium Disposition Program are likely to exceed initial estimates.

  •   The Department of Energy's Strategy for Disposal of Plutonium (ER-L-02-01, February
      2002). The Department's original approach for the disposal of plutonium – immobilizing
      8.4 metric tons of plutonium and converting 25.6 metric tons to fuel – is estimated to cost
      about $6.3 billion. In contrast, we estimated that converting all 34 metric tons to reactor
      fuel would cost about $4.6 billion and immobilizing all the material would cost about
      $4.3 billion. Department officials originally believed that converting all of the plutonium
      into fuel was not technically feasible and the Russian Federation would reject a proposal
      to immobilize the entire amount. However, the Department had since resolved the
      technical feasibility issues surrounding conversion. The audit disclosed that the
      Department could save at least $1.7 billion by converting all of the surplus plutonium
      into fuel and avoiding the cost of plutonium immobilization.

  •   The Plutonium Immobilization Plant at the Savannah River Site (IG-0522, September
      2001). The proposed Plutonium Immobilization Plant potentially overlapped with the
      capability of the Savannah River Site's FB Line Facility, and could duplicate the
      capability of the Treatment and Storage Facility, which was scheduled to be operational
      in September 2008. The Department's Office of Fissile Materials Disposition had not
      considered the FB Line Facility or the Treatment and Storage Facility as alternatives for
      disposing of excess plutonium. We estimated that the Department could save $650
      million if it used existing or planned facilities, rather than build the Plutonium
      Immobilization Plant.




Page 9                                                                    Prior Audit Reports
                                                                    IG Report No. DOE/IG-0688

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
